U.S. Department of Agriculture
 Office of Inspector General
      Northeast Region
         Audit Report


 FOOD AND NUTRITION SERVICE
 SECURITY OVER INFORMATION
   TECHNOLOGY RESOURCES




                  Report No.
                  27099-18-Hy
                  September 2001
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:           September 5, 2001

REPLY TO
ATTN OF:        27099-18-Hy

SUBJECT:        Food and Nutrition Service
                Security Over Information Technology Resources

TO:             George A. Braley
                Acting Administrator
                Food and Nutrition Service

ATTN:           Sharon Eldred
                Acting Director
                Grants Management Division


This report presents the results of the subject audit. Your response to the official draft,

dated July 24, 2001, is included as exhibit A with excerpts and the Office of Inspector

General’s position incorporated into the Findings and Recommendations Section of the

report.


Based on information provided, we have reached management decision for all

recommendations (Nos. 1 through 26) included in the report. Please follow your internal

procedures in forwarding final action correspondence to the Office of the Chief Financial

Officer.


We appreciate the cooperation and assistance extended to us during this audit.


          /s/
RICHARD D. LONG
Assistant Inspector General
  for Audit
                        EXECUTIVE SUMMARY

                         FOOD AND NUTRITION SERVICE
                          SECURITY OF INFORMATION
                           TECHNOLOGY RESOURCES

                         AUDIT REPORT NO. 27099-18-HY


                                     The overall objective of this audit was to assess
      RESULTS IN BRIEF               the threat of penetration of Food and Nutrition
                                     Service (FNS) mission critical systems and
                                     determine the adequacy of the security over the
         local and wide area networks. FNS utilizes its computer systems to process,
         analyze, and support more than $32 billion in financial and program data on
         an annual basis.

            Our audit of FNS’ security over information technology (IT) resources has
            disclosed serious security vulnerabilities and inadequate controls over
            access to FNS’ computer network and systems. These weaknesses
            occurred because adequate controls have not always been established
            and/or implemented and agency management has not placed a priority on or
            budgeted funds to address Office of Management and Budget (OMB)
            requirements. These weaknesses indicate a need for a stronger IT security
            program. As technology has enhanced the ability to share information, it
            also made it more vulnerable to unlawful and destructive penetration and
            disruptions. We believe unless corrective actions are timely implemented,
            FNS is at risk that financial and program data may be compromised.

            We identified the following material weaknesses during our audit.

            •   FNS has systems on its network that have potentially serious security
                vulnerabilities. Agency officials have not effectively ensured that FNS’
                operating systems are free from known security vulnerabilities. These
                vulnerabilities, if left uncorrected, could jeopardize the security of FNS’
                network and its critical and sensitive financial and program data.

            •   Adequate physical controls have not been implemented at the facilities
                reviewed. Door lock controls were not always utilized. As a result,
                computer resources are vulnerable to unauthorized access.



USDA/OIG-A/27099-18-Hy                                                              Page i
                     •    User ID and password security, as well as FNS’ process for reviewing
                          continuing system access to financial and payment systems, are not
                          always effectively managed to ensure individual accountability. Although
                          our audits have not detected unauthorized access, FNS’ security
                          processes and controls may not prevent or detect unauthorized
                          individuals from accessing, modifying, or destroying sensitive financial
                          and program information.

                     •    Weaknesses in logical controls1 exist in two of FNS’ systems. Password
                          features have not always been implemented and the user ID password
                          for one system was not encrypted. FNS officials stated they did not
                          activate these features because of compensating controls (for example,
                          only the system administrator had access to the unencrypted file) and
                          cost considerations. However, these compensating controls do not
                          adequately protect passwords from unauthorized users. Additionally, we
                          observed one individual’s log-on ID and user password posted within
                          their workstation. As a result, there is a risk that unauthorized individuals
                          could access these systems, alter data, and not be detected.

                     •    FNS’ planning for contingencies need improvement. FNS has not
                          always updated or tested its contingency plans in a timely manner nor
                          did they always correct deficiencies identified in its vulnerability
                          assessments. Agency officials advised this occurred because ITD has
                          not placed a priority on or budgeted funds for contingency planning or
                          established a schedule for updating and testing its contingency plans.
                          As a result, FNS’ computer facilities are susceptible to damage or
                          unplanned down time in the event of a disaster or unexpected events.

                     •    FNS has not always adhered to OMB requirements that risk
                          assessments and system certifications2 be completed at least every
                          3 years. Five of nine mission critical systems, which contain critical and
                          sensitive information, have not been assessed within the past 3 years.
                          Additionally, certifications have never been obtained for three systems
                          and re-certification for three other systems are past due. As a result, the
                          vulnerability of threats to the confidentiality and integrity of information,
                          the availability of its systems, and the protection of information resources
                          is substantially increased.

                     •    FNS has not validated that all data for one system are encrypted before
                          transmission to the National Information Technology Center (NITC). This

1
     Logical controls involve the use of computer hardware and software to prevent or detect unauthorized access by requiring users
    to input IDs, passwords, or other identifiers that are linked to predetermined access privileges.
2
    System certification is the method FNS management uses to provide written agency management authorization that major
    systems are ready for use. These certifications assure management that operational, personnel, and technical controls are
    functioning effectively.

USDA/OIG-A/27099-18-Hy                                                                                                   Page ii
                          occurred because FNS has not conducted reviews to determine whether
                          all States have implemented the encryption software provided to them.
                          As a result, sensitive Privacy Act data may be at risk when sent from
                          States because it may not be encrypted.

                     •    Incompatible duties exist within the ITD. The network LAN administrator,
                          who is a super user3 of the LAN, is also the deputy security officer
                          responsible for maintaining the security over the LAN. As a result, there
                          is increased risk that data could be altered and not be detected.

                                         We recommend that FNS take immediate
     KEY RECOMMENDATIONS                 action to eliminate the high and medium risk
                                         vulnerabilities found on its systems and
                                         implement the following procedures to improve
             its security vulnerabilities and inadequate controls.

                     •    Establish procedures for conducting periodic scans at FNS National,
                          regional, and field offices where servers are maintained.

                     •    Establish controls that ensure computer rooms are locked at all times
                          and combinations to locks are changed periodically and after all
                          personnel changes.

                     •    Implement controls to remove log-on IDs and passwords from all FNS
                          systems upon an individual’s separation from employment, identify and
                          remove inactive system users from authorization lists, and require
                          supervisory approval for all FNS users of Treasury systems.

                     •    Establish controls to ensure that passwords have a maximum life of
                          90 days, a minimum length of 6 to 8 characters, and be periodically
                          changed; and require password files be encrypted and personnel protect
                          passwords from disclosure.

                     •    Establish controls to ensure all contingency plans are updated at least
                          annually, to include all operating environment changes and system
                          improvements, and establish a schedule for testing all contingency plans.

                     •    Establish procedures to ensure that risk assessments of all computer
                          systems are conducted every 3 years or whenever a significant
                          modification is made, establish controls for ensuring that system
                          certifications and re-certifications are timely completed, and establish a


3
    Super users have access to all data and programs on the LAN.

USDA/OIG-A/27099-18-Hy                                                                      Page iii
               schedule and expedite the completion of all system certifications and
               re-certifications.

           •   Perform reviews of all States to ensure encryption software has been
               implemented and is being utilized for the transmission of Privacy Act
               data.

           •   Delegate the responsibility for data security over the LAN to either the
               information systems security officer or the deputy information systems
               security officer.

                                       FNS agreed with the audit recommendations
     AGENCY RESPONSE                   and will implement applicable procedures and
                                       controls to improve security over information
                                       technology resources.

                                       We concur with the proposed management
        OIG POSITION                   decisions.




USDA/OIG-A/27099-18-Hy                                                         Page iv
                                              TABLE OF CONTENTS


EXECUTIVE SUMMARY........................................................................................................ i
  RESULTS IN BRIEF ........................................................................................................... i
  KEY RECOMMENDATIONS............................................................................................ iii
  AGENCY RESPONSE...................................................................................................... iv
  OIG POSITION.................................................................................................................. iv
INTRODUCTION ................................................................................................................... 1
  BACKGROUND................................................................................................................. 1
  OBJECTIVES..................................................................................................................... 4
  SCOPE ............................................................................................................................... 4
  METHODOLOGY............................................................................................................... 4
FINDINGS AND RECOMMENDATIONS ............................................................................. 5
CHAPTER 1........................................................................................................................... 5
VULNERABILITY TESTS DISCLOSED NUMEROUS SECURITY WEAKNESSES ON
SYSTEMS IN FNS’ NETWORK............................................................................................ 5
  FINDING NO. 1 .................................................................................................................. 5
  RECOMMENDATION NO. 1 ............................................................................................. 7
  RECOMMENDATION NO. 2 ............................................................................................. 7
  RECOMMENDATION NO. 3 ............................................................................................. 8
CHAPTER 2........................................................................................................................... 9
PHYSICAL SECURITY OF COMPUTER FACILITIES NEEDS IMPROVEMENT.............. 9
  FINDING NO. 2 .................................................................................................................. 9
  RECOMMENDATION NO. 4 ........................................................................................... 10
  RECOMMENDATION NO. 5 ........................................................................................... 11
CHAPTER 3......................................................................................................................... 12
SYSTEM ACCESS CONTROLS NEED STRENGTHENING ............................................ 12
  FINDING NO. 3 ................................................................................................................ 12
  RECOMMENDATION NO. 6 ........................................................................................... 15
  RECOMMENDATION NO. 7 ........................................................................................... 15
  RECOMMENDATION NO. 8 ........................................................................................... 16
  FINDING NO. 4 ................................................................................................................ 16
  RECOMMENDATION NO. 9 ........................................................................................... 18
  RECOMMENDATION NO. 10 ......................................................................................... 19
  RECOMMENDATION NO. 11 ......................................................................................... 19
  RECOMMENDATION NO. 12 ......................................................................................... 19
  RECOMMENDATION NO. 13 ......................................................................................... 20
  RECOMMENDATION NO. 14 ......................................................................................... 20
  FINDING NO. 5 ................................................................................................................ 20
  RECOMMENDATION NO. 15 ......................................................................................... 22
  RECOMMENDATION NO. 16 ......................................................................................... 22
USDA/OIG-A/27099-18-Hy                                                                                                        Page v
CHAPTER 4......................................................................................................................... 24
CONTINGENCY PLANNING NEEDS IMPROVEMENT.................................................... 24
  FINDING NO. 6 ................................................................................................................ 24
  RECOMMENDATION NO. 17 ......................................................................................... 26
  RECOMMENDATION NO. 18 ......................................................................................... 26
  RECOMMENDATION NO. 19 ......................................................................................... 27
  FINDING NO. 7 ................................................................................................................ 27
  FINDING NO. 8 ................................................................................................................ 28
  RECOMMENDATION NO. 20 ......................................................................................... 30
CHAPTER 5......................................................................................................................... 31
OMB CIRCULAR A-130 REQUIREMENTS NOT ALWAYS MET .................................... 31
  FINDING NO. 9 ................................................................................................................ 31
  RECOMMENDATION NO. 21 ......................................................................................... 32
  RECOMMENDATION NO. 22 ......................................................................................... 33
  FINDING NO. 10 .............................................................................................................. 33
  RECOMMENDATION NO. 23 ......................................................................................... 35
  RECOMMENDATION NO. 24 ......................................................................................... 35
CHAPTER 6......................................................................................................................... 36
PRIVACY ACT DATA NEEDS TO BE ENCRYPTED........................................................ 36
  FINDING NO. 11 .............................................................................................................. 36
  RECOMMENDATION NO. 25 ......................................................................................... 37
CHAPTER 7......................................................................................................................... 38
INADEQUATE SEPARATION OF DUTIES EXIST WITHIN ITD....................................... 38
  FINDING NO. 12 .............................................................................................................. 38
  RECOMMENDATION NO. 26 ......................................................................................... 39
EXHIBIT A – FNS RESPONSE TO DRAFT REPORT ...................................................... 40
ABBREVIATIONS ............................................................................................................... 47




USDA/OIG-A/27099-18-Hy                                                                                                   Page vi
                             INTRODUCTION

                                      The mission of FNS is to provide children and
        BACKGROUND                    needy families access to a more healthful diet
                                      through its food assistance programs and
                                      comprehensive nutrition education efforts.
          FNS’ food assistance programs account for almost half of the U.S.
          Department of Agriculture’s (USDA) budget.           Taken together, FNS’
          programs provide a nutritional safety net for America’s low-income families.

           FNS is responsible for administering 15 domestic food assistance programs.
           These include the Food Stamp Program (FSP); Special Nutrition Programs
           which include the Child Nutrition Programs (CNP) and Special Supplemental
           Nutrition Program for Women, Infants, and Children; Food Donations
           Programs; and Nutrition Assistance for Puerto Rico. FNS expended
           program funds totaling more than $32 billion in fiscal year (FY) 2000.

           FNS programs are administered through its national office and seven
           regional offices. FNS issues program regulations and provides training and
           assistance to States. Program benefits are delivered under agreements with
           State agencies who determine program eligibility and distribute benefits.
           FNS pays the benefit costs and part of the State administrative expenses for
           most of its food assistance programs.

           Within FNS, the Information Technology Division (ITD) administers the IT
           program. The five branches of ITD and their responsibilities follow.

           •   The Systems Administration Branch is responsible for State systems
               throughout the system’s life cycle. Additional responsibilities include
               operation of the (1) Anti-Fraud Locator Using Electronic Benefits
               Transfer Retailer Transactions (ALERT) system, (2) systems quality
               assurance and configuration management program, and (3) database
               administration.

           •   The Application Support Branch is responsible for FNS’ automated
               systems and the FNS Internet system.

           •   The Desktop Services Branch is responsible for FNS infrastructure that
               includes computer equipment, telecommunications, networks, etc. In
               addition, Desktop Services Branch responsibilities include assisting
               users in developing small desktop systems, operating a user help desk,
               and providing office automation support.
USDA/OIG-A/27099-18-Hy                                                         Page 1
           •   The Information Services Branch is responsible for the clearance of all
               agency records and is the FNS Freedom of Information Act point-of-
               contact.

           •   The Benefit Redemption Systems Branch (BRSB) is responsible for
               supporting the food coupon redemption-process of the FSP. This is
               accomplished through the Store Tracking and Redemption Subsystem
               (STARS).

           FNS has nine information systems that are critical to FNS’ mission.

           Food Stamp Program Integrated Information System – is a combination of
           four mainframe sub-systems used to support the administration and
           monitoring of the FSP, which handles over $18 billion in appropriated funds
           on an annual basis. These subsystems are either located at USDA’s
           National Information Technology Center (NITC) in Kansas City, Missouri or
           at FNS’ BRSB in Minneapolis, Minnesota.
           • Grantee Reporting Subsystem – uses data gathered through other
               subsystems to review the performance of each grantee.
           • Coupon Requisition and Inventory Management Subsystem - tracks
               information on the inventory of food coupons and associated accounting
               activities.
           • Disqualified Recipient Subsystem – tracks disqualified food stamp
               recipients   through     a    nationwide    database     and    conducts
               computer-matching activities with State agencies.
           • STARS - records and monitors FSP food coupon redemption activities,
               records proven regulatory violations by retailers, and monitors
               administrative actions associated with enforcement of related penalties.

           Special Nutrition Programs Integrated Information System – is a system
           used to support the administration and monitoring of Special Nutrition
           Programs’ food and administrative funds, which were almost $13 billion in
           FY 2000; and to track program participation statistics. This system is
           located at USDA’s NITC.

           Food Stamp Quality Control System – is a system used to store           case
           information about a sample of households that participate in the FSP.    This
           system has two components: the mainframe located at NITC which is       used
           for processing all data submitted by States and the PC-based            data
           input/data collection system resident at each State office.

           Agency Financial Management System – this system provides accountability
           for expenditures of Federal funds; and administration of program grants,

USDA/OIG-A/27099-18-Hy                                                           Page 2
           operating expenses, and personnel compensation and benefits for FNS
           staff. This system is located at USDA’s NITC.

           FNS Regional Office Administered Programs (ROAP) – is a modified version
           of the Florida CNP payment system that is used to interface with other FNS
           payment and information systems when FNS performs the role of the State
           agency. FNS directly administers CNPs where State law prohibits a State
           from administering an FNS program for certain types of sponsors. There are
           ROAPs for the National School Lunch, Breakfast and Milk Programs in
           six States; the Summer Food Service Program in three States; and the Child
           and Adult Care Food Program in one State. ROAP expenditures totaled
           more than $52 million in FY 2000. This system is located at the FNS
           Mid-Atlantic Regional Office (MARO) in Robbinsville, New Jersey.

           ALERT – is a fraud detection decision support system designed to monitor
           and track authorized electronic retailer transactions between FSP retailers
           and recipients. The system facilitates management of the retailer portion of
           the FSP by providing transaction-level information to Federal personnel
           charged with the responsibility of FSP retailer management and compliance
           activities. This system is located at the FNS National Office in Alexandria,
           Virginia.

           These systems and subsystems are considered to contain sensitive data as
           defined by Office of Management and Budget (OMB) Circular A-130,
           Management of Federal Information Resources, dated February 1996.
           There are three factors to be used in considering sensitivity level: integrity,
           availability, and confidentiality. Integrity is a property of a system that
           permits effective and reliable development and use. Availability requires that
           information must be available on a timely basis to meet mission
           requirements.       Confidential information requires protection from
           unauthorized disclosure.

            OMB Circular A-123, Management Accountability and Control, dated
           June 1995, provides guidance on improving the accountability and
           effectiveness of Federal programs and operations by establishing,
           assessing, correcting, and reporting on management controls. OMB
           Circular A-130, Security of Federal Automated Information Resources,
           Appendix III, dated February 9, 1996, provides government-wide direction
           on information resources management. The National Institute of Standards
           and Technology (NIST) manual, dated September 1996, addresses
           generally accepted principles and practices for securing IT systems. NIST
           Special Publication 800-18, Guide for Developing Security Plans for
           Information Technology Systems, dated December 1998, assists agencies
           in improving protection of information technology resources.        USDA

USDA/OIG-A/27099-18-Hy                                                            Page 3
           Departmental Manual 3140-1, Automated Data Processing (ADP) Security
           Policy, dated July 1984, provides standards, guidelines, and procedures for
           the development and administration of ADP security programs.

           FNS has developed two handbooks to assist them in developing an IT
           security program. FNS Handbook 701, FNS Information Systems Security
           Policy Handbook, dated October 1996, provides management guidance
           necessary for maintaining an information systems security program; and
           FNS Handbook 702, FNS Information Systems Security Standards and
           Procedures Handbook, dated November 1997, provides step-by-step
           procedures for implementing an information systems security program.

                                       Our objectives were to: 1) Assess the threat of
         OBJECTIVES                    penetration of FNS payment/data systems, and
                                       2) determine the adequacy of security over the
                                       local and wide area networks (LAN/WAN).

                                         The audit was conducted in accordance with
             SCOPE                       generally accepted Government auditing
                                         standards. Fieldwork was performed at the
                                         FNS National Office in Alexandria, Virginia;
           MARO, in Robbinsville, New Jersey; and BRSB in Minneapolis, Minnesota.
           FNS’ web servers, in Washington D.C., were evaluated as a part of Office of
           Inspector General (OIG) audit, Security Over USDA IT Resources Need
           Improvement, Audit No. 50099-27-FM, dated March 2001. We selected
           locations to ensure all nine of FNS’ mission critical systems were reviewed.

           This audit is part of a department-wide audit of IT security. In addition to
           selected program agencies within USDA, audit work was also conducted at
           the National Finance Center, NITC, and the Office of Chief Information
           Officer (OCIO). We reviewed controls over FNS systems located at USDA’s
           NITC as a part of OIG audit, NITC General Controls Review, FY 2000, Audit
           No. 88099-03-FM.

                                    We conducted our review by gaining an
       METHODOLOGY                  understanding of the computing environment at
                                    FNS, assessing agency planning and oversight
                                    over Internet/Intranet security, reviewing
         security over the LANs/WAN, assessing the threat of penetration into FNS
         sensitive systems and the LANs/WAN, and evaluating Federal information
         system controls at three computer facilities. We conducted our review
         through interviews, review of FNS records, and observations. We also
         applied a software-scanning tool to assess the threat of penetration into
         FNS’ systems.

USDA/OIG-A/27099-18-Hy                                                         Page 4
                       FINDINGS AND RECOMMENDATIONS


     CHAPTER 1                    VULNERABILITY TESTS DISCLOSED NUMEROUS SECURITY
                                      WEAKNESSES ON SYSTEMS IN FNS’ NETWORK


                                                 FNS has systems on its network that have
                 FINDING NO. 1                   potentially serious security vulnerabilities.
                                                 Agency officials have not effectively ensured
                                                 that the FNS operating systems4 are free from
                    known security vulnerabilities. These vulnerabilities, if left uncorrected,
                    could jeopardize the security of FNS’ network and its critical and sensitive
                    financial and program data. FNS systems process, analyze, and support
                    more than $32 billion in financial and program data on an annual basis.

                      OMB Circular A-1305 requires agencies to implement and maintain an
                      automated information security program to assure that adequate security is
                      provided for all agency information collected, processed, transmitted, stored,
                      or disseminated in general support systems and major applications.

                      To conduct our assessment of FNS’ network and systems at three FNS
                      locations, we used a commercial off-the-shelf software product which is
                      designed to identify vulnerabilities associated with various operating
                      systems. The software is able to perform over 8006 tests for security
                      vulnerabilities on systems that use Transmission Control Protocol/Internet
                      Protocol (TCP/IP).

                      We conducted our scans on 2 UNIX systems, 84 Windows NT systems, and
                      23 routers/switches between June 2000 and January 2001.                 The
                      assessments, which were conducted from both within the FNS network and
                      from a location outside its network, revealed 982 vulnerabilities7: 27 high,
                      243 medium, and 712 low. This included 15 vulnerabilities, 9 medium and
                      6 low, that could be exploited from outside the FNS network.



4
    (e.g. UNIX and Windows NT).
5
    OMB Circular A-130, Security of Federal Automated Information Resources, Appendix III, dated February 9,1996.
6
    During our vulnerability scans, we periodically updated our software to include additional discovered vulnerabilities. Not all scans
    conducted may have checked for the more than 800 vulnerabilities that were known at the time of this audit.
7
     High-risk vulnerabilities are those that provide unauthorized access to the computer and possibly the network of computers.
    Medium risk vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk
    vulnerabilities. Low risk vulnerabilities are those that provide access to network data that might be sensitive, but is less likely to
    lead to higher-risk exploitation.

USDA/OIG-A/27099-18-Hy                                                                                                         Page 5
           The high and medium risk vulnerabilities, if left uncorrected, could allow
           unauthorized users access to FNS’ network and possibly FNS’ critical and
           sensitive data. The significant number of low vulnerabilities can also be
           an indicator of poor system administration.

           Detailed below are a few examples of the high-risk vulnerabilities we
           disclosed during our scans of the various agency systems:

           •   One system was accessible using the inherently insecure file transfer
               protocol. On this system, a default account name could be used to
               gain access to the system using this protocol. An attacker could use
               this vulnerability to fill up the system’s hard disk, making it unusable by
               authorized users, or place a virus or other malicious software that
               could be executed by a more privileged user.

           •   A user account on one system had no password assigned to it, leaving
               it accessible by anyone. Depending on the access privileges on this
               user account, an attacker could use this vulnerability to access this and
               other computers on the network.

           •   One server that was found to have website capabilities was found to
               have one or more potentially vulnerable scripts. These scripts could
               be exploited to allow an attacker to execute malicious commands on
               that server.

           During our scan of FNS’ systems in its national office, a component of its
           firewall was not functioning and was down for three weeks, leaving only
           router filtering to protect its network. FNS officials took immediate action
           to correct the firewall problem. FNS has advised us that they are taking
           aggressive actions to correct the vulnerabilities we identified during our
           scans. FNS officials also stated new servers were installed as of
           April 2001. FNS recently purchased scanning software and will begin
           performing periodic scans of its systems and network to determine
           whether identified vulnerabilities have been corrected and whether any
           additional vulnerabilities are present.

           Periodically, systems need to be updated to incorporate recently released
           security patches and other software updates. During our visit to the three
           FNS locations, we noticed that each office was responsible for
           implementing security patches and configurations for their servers. Under
           a corporate approach, all servers in all offices would be updated and
           configured alike. FNS should implement a corporate approach to system
           configuration. Similar configurations will reduce the amount of individual
           attention needed when updates or upgrades are needed. At the exit

USDA/OIG-A/27099-18-Hy                                                            Page 6
           conference on May 30, 2001, FNS agreed to establish appropriate
           controls for identifying and eliminating vulnerabilities in its network.

                                       Take immediate action to eliminate the high and
  RECOMMENDATION NO. 1                 medium risk vulnerabilities found on FNS’
                                       systems.

           Agency Response

           All FNS workstations will be upgraded to Microsoft Workstation 2000
           Professional by December 31, 2001. This will eliminate the ability of a
           person without proper credentials from accessing FNS systems. This
           accounts for the majority of the high and medium risk vulnerabilities
           discovered.      Once Internet Security Systems (ISS) penetration and
           monitoring software is installed, new penetration studies will be run on all
           servers and workstations, and any deficiencies will be corrected
           immediately. Scans will be completed by January 15, 2002 and identified
           deficiencies will be corrected within 30 days thereafter.

           OIG Position

           Upgrading to Windows 2002, which requires a password to log onto the
           workstation, would not correct the weaknesses identified by OIG scans or
           prohibit someone from accessing FNS systems. However, we concur with
           management decision because the high and medium risk vulnerabilities
           identified during OIG scans relate to servers that FNS subsequently
           replaced. Additionally, FNS plans to conduct scans on its new servers and
           correct identified deficiencies on all servers and critical devices by
           February 15, 2002.

                                       Establish procedures for conducting periodic
  RECOMMENDATION NO. 2                 scans at all FNS national, regional and field
                                       offices where servers are maintained.

           Agency Response

           FNS is participating in the Department’s global contract for ISS software. By
           September 30, 2001, ISS will be installed and penetration studies will be
           made on all devices that are licensed under FNS. An operational Handbook
           will be published by September 30, 2001, which will include procedures for
           conducting scans of all devices on a quarterly basis. Additionally, scans of
           servers and more critical devices will be conducted on a weekly basis
           beginning by October 31, 2001. Initial scanning will be completed by



USDA/OIG-A/27099-18-Hy                                                          Page 7
           January 15, 2002 and identified deficiencies will be corrected on all servers
           and critical devices by February 15, 2002.

           OIG Position

           We concur with FNS’ proposed management decision.

                                       Implement a policy to use a corporate level
  RECOMMENDATION NO. 3                 approach to configuration management.


           Agency Response

           Desktop Services Branch of the Information Technology Division of FNS
           established a Configuration Management Team on January 1, 2001. The
           team’s charge is to provide design standards for information technology,
           such as servers, workstations, software products, and printers. These
           standards will establish a policy and ensure consistent system configuration
           agency-wide. All standards are documented in the Desktop Services
           Branch Handbook. The standards will be completed by October 1, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                          Page 8
     CHAPTER 2                   PHYSICAL SECURITY OF COMPUTER FACILITIES NEEDS
                                                 IMPROVEMENT


                                                           Adequate physical controls have not been
                FINDING NO. 2                              implemented at two of the locations reviewed.
                                                           This occurred because door lock controls were
                                                           not always utilized. As a result, computer
                                                           Resources are vulnerable to unauthorized
                                                           access.

                    USDA8 defines computer facilities by type. Type I facilities are major
                    computer facilities which are operated by non-agency personnel, service
                    multiple USDA agencies, and have their own specific security policies. The
                    NITC is considered a Type I facility. Type II computer facilities are agency
                    specific facilities, including those that have a LAN or other mission critical
                    system. FNS Handbook 7019 defines the FNS National Office, BRSB, and
                    its regional offices as Type II facilities. Type III facilities are office spaces
                    where multifunction workstations and network devices are located.

                    FNS Handbook 70110 requires that access to FNS computer systems and
                    data be limited to personnel who have clearance. The handbook also
                    requires that Type II computer facilities be controlled spaces. Only
                    authorized personnel should enter the computer room unescorted and doors
                    should be locked to control access. OMB Circular A-12311 requires that
                    access to resources and records be limited to authorized individuals.

                    Physical security is a vital part of an information systems security program.
                    Physical security protects computer resources from unauthorized use,
                    damage, theft, or unauthorized access to computer systems. To ensure that
                    controls are in place, we interviewed FNS security and computer room
                    personnel, and observed physical controls to prevent unauthorized access
                    at three locations: FNS National Office, MARO, and BRSB. The computer
                    room at FNS National Office contains the ALERT server, LAN server, and
                    associated hardware and software. The computer room at MARO contains
                    the ROAP server, LAN server, and associated hardware and software. The
                    computer room at BRSB contains the mainframe subsystem STARS, LAN
                    server, and associated hardware and software.



8
     USDA Departmental Manual 3140-1, ADP Security Policy, dated July 1984.
9
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Section 310, dated October 1996.
10
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Section 300 and Section 312, dated October 1996.
11
     OMB Circular A-123, Management Accountability and Control, revised June 21, 1995.

USDA/OIG-A/27099-18-Hy                                                                                            Page 9
           Two of the computer rooms were vulnerable to unauthorized access during
           the audit. At one location, a door to the computer room was left unlocked, at
           least once, during our audit. During the initial weeks of our audit we
           attempted to enter FNS’ computer rooms. At one location, no one
           questioned our presence in the computer room for more than five minutes.
           We were also able to access, within the office suite, a computer and
           examine files located on the hard drive without a user ID or password. At
           another location, the combination to the cipher lock for the computer room’s
           rear entrance was not changed after a contract employee separated from
           employment in June 2000. FNS does not have procedures for periodically
           changing the combination of the computer room door lock. After we
           discussed this issue with FNS personnel in October 2000, the combination
           was changed. These conditions provide an opportunity for unauthorized
           personnel to gain access to FNS’ computer facilities.

           An independent contractor conducted a security review of one of FNS’
           facilities in April 2000. The independent contractor also reported a lack of
           security to the office suite. FNS responded that a key card system was
           being implemented. In May 2001 the building key card system was installed
           and activated.

           FNS needs to establish adequate physical controls to ensure that computer
           rooms are secured at all times and combination locks are periodically
           changed. At the exit conference on May 30, 2001, FNS officials stated that
           they had sent a notice to all employees to keep doors locked in the
           computer room and agreed to implement other necessary procedures to
           ensure that adequate physical security controls are implemented, including
           changing combinations to locks at least quarterly and after an employee
           leaves the agency.

                                       Establish controls that ensure security officers
  RECOMMENDATION NO. 4                 and computer room personnel keep computer
                                       rooms locked at all times.

           Agency Response

           Established policy already covers this area (See FNS Information Systems
           Security Policy Handbook 701, section 310 and 312) and in the revised FNS
           Information Systems Security Policy Handbook 701 (see section 110 Policy).
           Computer room personnel have been briefed to challenge unescorted
           visitors to FNS controlled office space. In addition, computer security
           reminders will be issued at least quarterly, beginning in August 2001,
           regarding keeping computer rooms doors locked.



USDA/OIG-A/27099-18-Hy                                                         Page 10
           OIG Position

           We concur with FNS’ proposed management decision.

                                       Establish procedures to ensure that security
  RECOMMENDATION NO. 5                 officers periodically change combinations to
                                       locks and after personnel are separated from
                                       employment.
           Agency Response

           FNS Headquarters and regional facilities are required by FNS
           Handbook 702 (see section 621) to establish their own procedures regarding
           physical access.       For instance, FNS Headquarters does not utilize
           combination door locks to secure its computer room. To ensure regional
           facilities have such procedures, annual facility plans will be reviewed by
           August 6, 2001, and any shortcomings will be followed up within 60 days.
           Additionally, site reviews are performed by FNS security staff on a periodic
           basis to ensure compliance with the annual facility plan.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                        Page 11
      CHAPTER 3                    SYSTEM ACCESS CONTROLS NEED STRENGTHENING


                     FNS has not established adequate controls over access to FNS’ computer
                     network and systems or the U.S. Department of the Treasury (Treasury)
                     systems. Active management of system access is critical to ensure that
                     access is limited to authorized users. FNS did not (1) timely remove user
                     access for separated employees, (2) adequately evaluate users to
                     determine continuing need for system access, (3) maintain an updated list of
                     all users by system, (4) implement adequate logical controls to restrict
                     access to data and files, or (5) implement adequate compensating controls
                     for accessing Treasury systems.

                     We reviewed the management of user access and software parameters for
                     four mission critical systems. We also reviewed the access controls over
                     Treasury systems used by FNS. Our audit did not detect any unauthorized
                     access.

                                             FNS has not implemented adequate user
           FINDING NO. 3                     access controls. FNS did not timely remove
                                             mainframe access for separated employees,
     USER ACCESS CONTROLS WERE               maintain a list of systems each individual is
            NOT ADEQUATE                     authorized to access, or adequately review
                                             users for continued system access. Agency
                                             officials advised this occurred because: (1) ITD
              was not always promptly notified when an employee with mainframe access
              separated from the agency; (2) FNS’ databases of LAN and mainframe
              users were not linked increasing the risk that when LAN access was deleted
              mainframe access may not be removed; and (3) managers were not always
              identifying all users with a continued need for access in their annual review.
              As a result, computer resources are vulnerable to unauthorized access.

                     OMB Circular A-12312 requires that policies and procedures used by
                     agencies reasonably ensure reliable and timely information is obtained,
                     maintained, reported and used for decision making. Active management
                     control of log-on IDs is critical to ensure that inactive and unauthorized users
                     are removed. Management controls should provide reasonable assurance
                     that assets are safeguarded against unauthorized use.

                     FNS Handbook 70113 requires the information systems security officer to
                     maintain a master list of all log-on IDs and what systems each individual

12
     OMB Circular A-123, Management Accountability and Control, revised June 21, 1995.
13
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Section 302, dated October 1996.

USDA/OIG-A/27099-18-Hy                                                                                      Page 12
                    log-on ID is authorized to access. In addition, individual log-on IDs and
                    passwords are to be deleted from all FNS systems when individual users
                    depart FNS.

                    NIST principles and practices14 provide a baseline that organizations can
                    use to establish and review their information technology programs.
                    Specifically that user IDs that are inactive on the system for a period of
                    3 months or another specified period of time should be disabled.

                    Mainframe Access

                    We identified five instances where user access was not timely removed from
                    an FNS system after an employee separated from the agency. Although
                    ITD removes LAN access at separation, ITD does not always delete the
                    employee’s mainframe access. This occurs because ITD is not always
                    notified of this access and they do not maintain a current listing of users, by
                    system, with mainframe access. In addition, FNS systems are not linked to
                    allow one deletion for all systems, LAN and any mainframe system.
                    Therefore, the user’s specific system access would still be accessible by
                    someone using the separated employee’s log-on ID and password. Also,
                    there is a risk that the separated employee could log onto a current
                    employee’s unattended workstation.

                    When an employee/contractor separates from FNS the individual’s
                    supervisor completes a computer system access document requesting
                    deletion of the individual’s access, a final salary report, or an exit interview
                    form. The employee/contractor is debriefed, and the form(s) is provided to
                    the FNS security officer who then suspends the individual’s LAN access on
                    the day of separation and deletes the LAN access the next business day.
                    However, if ITD is not notified that the employee has mainframe access to
                    several systems, this access may not be deleted.

                    Program managers use a system-generated report (e.g. Security2 report) of
                    all users and their functional access to review current system access. We
                    reviewed this report, for one system, as of September 26, 2000, and
                    identified 98 users, including employees and contractors. We compared the
                    report to the available personnel rosters and reports of separation from the
                    agency. We compared the report to the security officer’s list of mainframe
                    log-on IDs and a NITC list of inactive mainframe users as of July 10, 2000.
                    We identified one employee who had separated from FNS in May 1998 and
                    four other employees who separated from FNS prior to January 2000,
                    whose mainframe log-on IDs were not deleted until July 2000.

14
     NIST Generally Accepted Principles and Practices for Securing Information Technology Systems manual, Common Security
     Practice, 3.11, Identification and Authentication, dated September 1996.

USDA/OIG-A/27099-18-Hy                                                                                       Page 13
                    Review of Authorized Users

                    In the analysis of one system’s authorized users (98) we identified that
                    managers were not adequately reviewing the list of users for continuing
                    system need. We identified the following:

                    •   51 users (52 percent) did not have a current mainframe log-on ID, of
                        which 34 were removed by NITC for inactivity;
                    •   15 users were granted access to this system during the period
                        August 1996 through September 1999 but never accessed the system;
                        and
                    •   12 users were no longer FNS employees.

                    As a result of a recent report, OIG Audit No. 88099-01-FM, NITC General
                    Controls Review, FY 1998, dated December 1999, NITC implemented a
                    control to identify and remove mainframe users at NITC who have been
                    inactive after 180 days. FNS is notified of NITC’s actions to remove
                    mainframe access, however, FNS has not taken actions to remove inactive
                    users from its systems.

                    Program managers identify system users and their security levels through a
                    review of the Security2 report or similar report. FNS officials stated that they
                    use this list at least once a year to evaluate the appropriateness of user
                    access. FNS Handbook 70115 states that managers and supervisors are
                    responsible for determining the need for employees to access a system, but
                    it does not require a periodic review of authorized users. Our analysis
                    shows that the Security2 report is not effectively screened for separated
                    employees or users who no longer have a need for system access, including
                    inactive users.

                    Recognizing the need to improve system access controls, FNS is interested
                    in developing a centralized database that maintains and utilizes a master list
                    of all current users by system. This system will need to work on both
                    mainframe and client server applications.        FNS is evaluating either
                    purchasing a commercial off-the-shelf product or developing a prototype to
                    accomplish this task.

                    FNS needs to strengthen system access controls by requiring that log-on
                    IDs and passwords be removed for terminated employees and inactive
                    users, and ensure the security officer maintains a master list of all current
                    mainframe users by system. At the exit conference on May 30, 2001, FNS

15
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Section 270, Non-Information Systems Security
     Personnel Responsibilities, and Section 309 System Access Security Responsibilities, dated October 1996.

USDA/OIG-A/27099-18-Hy                                                                                     Page 14
           officials agreed to implement necessary procedures to ensure that adequate
           access controls are implemented.

                                       Implement controls to remove log-on IDs and
  RECOMMENDATION NO. 6                 passwords from all FNS systems when
                                       employment terminates.

           Agency Response

           Human Resources has agreed to issue monthly gains and losses reports to
           the Security Office beginning in August 2001. The Security Office will use
           this information to remove log-on IDs and passwords from all FNS systems
           when employment terminates. The Security Office will send out lists of
           contractor employees to the Contracting Officer’s Representative (COR) in
           the Agency on a quarterly schedule beginning in September 2001 to verify a
           current list of contractors.

           OIG Position

           We concur with FNS’ proposed management decision.

                                       Establish controls to ensure the security officer
  RECOMMENDATION NO. 7                 maintains and utilizes a master list of current
                                       users by system.

           Agency Response

           FNS will approach this recommendation in two steps. Initially, we are
           developing a system to capture FNS-674 information in a database. This
           will provide the capability to track who has access to specific systems.
           Reports will be available by system and by individual. The information will
           be updated and maintained by using the monthly gains and losses list from
           Human Resources and by the quarterly list of active contractors from the
           CORs. The users will be able to complete an FNS-674 on-line and the data
           will be captured into the database. We are currently testing the system. We
           anticipate implementation by December 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                         Page 15
                                                             Implement procedures that require managers to
      RECOMMENDATION NO. 8                                   perform a critical review of system-generated
                                                             reports of all users and identify and remove
                                                             log-on IDs and passwords for all users who no
                                                             longer have a need for access or who have
                                                             been identified as inactive.

                     Agency Response

                     FNS will develop and implement a system to ensure that each System
                     Manager reviews the list of approved users of their system. Log-on IDs and
                     passwords for all users who no longer have a need for access or who have
                     been identified as inactive will then be removed. The lists will be provided to
                     each System Manager semi-annually.            We will begin the cycle by
                     October 31, 2001.

                     OIG Position

                     We concur with FNS’ proposed management decision.

                                        Weaknesses exist in the logical controls of FNS
          FINDING NO. 4                 systems. This occurred because adequate
                                        security password features have not been
     WEAKNESSES EXIST IN LOGICAL        implemented in two systems and the user ID
            CONTROLS                    password file for one system was not
                                        encrypted. FNS officials stated they did not
                                        activate      these     features    because      of
             compensating controls (for example, only the system administrator had
             access to the unencrypted file) and cost considerations. However, these
             compensating controls do not adequately protect passwords from
             unauthorized users. As a result, there is a risk that unauthorized individuals
             could access these systems, alter data, and not be detected.

                     Logical controls involve the use of computer hardware and software to
                     prevent or detect unauthorized access by requiring users to input user IDs,
                     passwords, or other identifiers that are linked to predetermined access
                     privileges. Logical controls should be designed to restrict legitimate users to
                     the specific systems, programs, and files that they need and prevent others,
                     such as hackers, from entering the system at all.16




16
     U.S. General Accounting Office, Federal Information System Controls Audit Manual, dated December 1996.

USDA/OIG-A/27099-18-Hy                                                                                        Page 16
                     FNS Handbook 70117 requires users to change passwords at periodic
                     intervals. For Type II facilities, passwords should be changed every
                     90 days. Paragraph B requires that when passwords are issued, the user
                     should immediately change the password to one known only to the user.
                     FNS Handbook 70218 requires that passwords be 6 to 8 characters in length
                     and be changed by the user at least every 90 days, except when following
                     requirements of other agency computer centers, such as NITC. FNS
                     Handbook 702 also requires all personnel using FNS information systems to
                     use a password that is known only to them and not divulge or share their
                     password with anyone. NIST principles and practices19 provide a baseline
                     that organizations can use to establish and review their information
                     technology programs. Specifically, organizations should limit the number of
                     log-on attempts and configure operating systems to lock out a user ID after a
                     set number of failed log-on attempts. NIST principles and practices also
                     state that authentication data (e.g. passwords) should be protected with
                     access controls and one-way encryption to prevent unauthorized individuals,
                     including system administrators, or hackers from obtaining data. Current
                     FNS handbooks do not address encryption. However, FNS is the process of
                     revising FNS Handbook 701, to incorporate encryption requirements that are
                     in accordance with NIST standards.

                     The most commonly used means of restricting access to data files and
                     software programs is through security software. Security software provides
                     a means of specifying who has access to a system, what types of access
                     are granted, what standards are in place for passwords, and other limitations
                     on access to files and programs.

                     We tested the logical controls for four mission critical systems and identified
                     the following weaknesses in the security password parameters in two
                     systems.

                     •   One system does not require passwords to be: composed of more than
                         one character, changed after initial log-on, and periodically changed
                         thereafter. Additionally, system password files were not all encrypted.
                         The system software that is used to gain access consists of
                         vendor-supplied and contractor developed software. The password file
                         for the contractor-developed portion is in clear text, which increases the
                         risk that unauthorized internal or external users may access this data and
                         use it for unauthorized purposes.

17
      FNS Handbook 701, FNS Information Systems Security Policy Handbook, Section 302, Log-on and Passwords, paragraph F,
     dated October 1996.
18
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Section 104, Password Standard,
     dated November 1997.
19
     NIST Generally Accepted Principles and Practices for Securing Information Technology Systems manual, Common Security
     Practice, 3.11.2, Authentication, dated September 1996.

USDA/OIG-A/27099-18-Hy                                                                                        Page 17
           •   Two systems do not have a feature that limits the number of log-on
               attempts without a valid password. One system allows an unlimited
               number of password attempts. Another system will allow three invalid
               passwords before a user is locked out.           However, a user can
               immediately return to the log-on menu and again attempt three
               passwords before being locked out. A user from this system could
               attempt to log-on indefinitely.
           •   Two systems do not have time-out features. As a result, there is a risk
               that unauthorized personnel can review, modify, or delete system
               information if a workstation is left unattended.

           We also observed computer workstations at all locations reviewed to
           determine if passwords were displayed. At one location we observed
           25 workstations and noted that in one workstation a log-on ID and password
           was posted next to the employee’s computer. In prior fiscal years, except for
           FY 2000, FNS conducted security awareness training and distributed notices
           to remind personnel to protect passwords and log-on IDs from disclosure.

           FNS needs to implement additional logical controls to ensure that passwords
           have a minimum length, a maximum life, and are immediately changed
           during the initial log-on. All password files need to be encrypted to prevent
           unauthorized access to system files or data and during periodic security
           awareness training all personnel need to be reminded to protect log-on IDs
           and passwords from disclosure. Subsequent to the audit fieldwork, FNS
           implemented controls to require minimum password length, maximum
           password life, change an initially assigned password, and encrypt password
           files. At the exit conference on May 30, 2001, FNS officials also agreed to
           implement other necessary logical controls to correct identified weaknesses.

                                       Modify system controls to require password
  RECOMMENDATION NO. 9                 length of 6 to 8 characters.


           Agency Response

           The Agency policy requires passwords on all systems, and that the
           passwords be at least 6 to 8 characters in length. The systems not currently
           compliant will be compliant by December 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                         Page 18
                                     Modify system controls to require a maximum
 RECOMMENDATION NO. 10               password life of 90 days.


           Agency Response

           All of our systems are required to have a password that expires every
           90 days, except for NFC which requires users to change their passwords
           every 45, or every 18 days, depending on their access. The systems not
           currently compliant will be compliant by December 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.

                                     Modify system controls to require that a user
 RECOMMENDATION NO. 11               immediately change an assigned password
                                     during the initial log-on.

           Agency Response

           The systems not       currently   compliant   will   be   compliant   by
           December 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.

                                     Establish procedures that require password
 RECOMMENDATION NO. 12               files for all systems be encrypted.


           Agency Response

           The systems not       currently   compliant   will   be   compliant   by
           December 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                     Page 19
                                         Implement a time-out feature for all critical
 RECOMMENDATION NO. 13                   systems.


            Agency Response

            All mainframe systems currently have a time-out feature. LAN based
            systems and client server systems will be protected by the workstation
            security.      All FNS workstations will be upgraded to Microsoft
            Workstation 2000 Professional by December 31, 2001.                 All FNS
            workstations will have implemented screen savers. After a period of
            inactivity, the workstation will be locked, and only the logged-on user or an
            administrator can unlock the workstation.

            OIG Position

            We concur with FNS’ proposed management decision.

                                         Conduct periodic security awareness training
 RECOMMENDATION NO. 14                   during which personnel are reminded to protect
                                         passwords and log-on IDs from disclosure.

            Agency Response

            It is FNS policy that security awareness training be conducted on a yearly
            basis. The FNS Security Office plans to conduct training for all employees
            during the fourth quarter of the fiscal year. Additional security measures are
            being planned that will require users to sign a statement certifying that they
            affirm to protect FNS IDs and passwords. This form will be in use by
            January 1, 2002.

            OIG Position

            We concur with FNS’ proposed management decision.

                                     FNS     has      not     established    adequate
       FINDING NO. 5                 compensating    controls over access to Treasury
                                     systems. Although Treasury allows shared IDs
 IMPROVED ACCESS CONTROLS            and passwords, FNS needs to implement
  ARE NEEDED FOR TREASURY            additional controls that require periodic review
          SYSTEMS                    of the need for, and propriety of, access to
                                     Treasury data.        Without these additional
                                     controls there is an increased risk that
          unauthorized access to Treasury data will not be prevented or detected.

USDA/OIG-A/27099-18-Hy                                                           Page 20
                    USDA agencies are required to comply with the standards in the NIST
                    guide20. This guide recommends the protection of financial transaction
                    systems through proper security. NIST principles and practices21 state that
                    it is necessary to have a process for requesting, establishing, and closing
                    user accounts. Organizations should periodically review all users for
                    continued need and determine whether accounts are still active. It further
                    states that an organization should require users to uniquely identify
                    themselves and recommends that passwords be frequently changed.

                    FNS utilizes five Treasury systems to query and transmit financial data.
                    These systems are used for transmission of payment data to Treasury and
                    query the movement of funds. There is no Privacy Act information contained
                    in these Treasury systems. The data in these systems relate to State
                    organizations and users and are not individual specific. Treasury provides
                    all access instructions and controls the access to these systems.

                    We tested controls over access for the Treasury systems at three locations
                    and noted the following.

                    •    For one system, ten users at two locations shared two user IDs and
                         passwords. These same user IDs and passwords have not been
                         changed for several years.
                    •    For one system, one user approved their-own access; FNS procedures
                         indicate supervisory approval is required.
                    •    For four systems, user request documentation was not maintained.

                    Treasury periodically requests the FNS National Office to identify authorized
                    users of Treasury systems at FNS. However, all locations are not contacted
                    when preparing this list. As a result, FNS’ controls for ensuring only
                    authorized users have access to Treasury systems are inadequate. All
                    locations are not periodically identifying and reviewing the list of authorized
                    users of Treasury systems for continuing need.

                    FNS maintains system access request documentation for all FNS systems
                    indefinitely.  Requests for access to Treasury systems should be
                    maintained for the same period of time.

                    FNS stated that Treasury is implementing, in April 2001, an Intranet version
                    of one of its systems. This new system will require individual user IDs and

20
      NIST Special Publication 800-18, Guide for Developing Security Plans for Information Technology Systems, dated
     December 1998.
21
     NIST Generally Accepted Principles and Practices for Securing Information Technology Systems manual, Practice 3.5.2,
     Practice 3.11.1, and Practice 3.11.3, dated September 1996.

USDA/OIG-A/27099-18-Hy                                                                                       Page 21
           passwords, thereby correcting existing problems with shared user IDs and
           passwords.

           FNS needs to establish additional compensating controls over access to
           Treasury systems. These should include maintaining Treasury system
           access documentation, and implementing procedures at all locations for the
           periodic identification and review of all authorized users of Treasury
           systems. Without these additional controls unauthorized access to Treasury
           data is at increased risk of not being prevented or detected. At the exit
           conference on May 30, 2001, FNS officials agreed to implement necessary
           access controls over Treasury systems. Subsequently, FNS also provided
           documentation to support supervisory approval for the identified system user
           who approved their own Treasury access.

                                       Establish procedures to ensure system access
 RECOMMENDATION NO. 15                 request documentation of FNS users for
                                       Treasury systems is maintained in the same
                                       manner as FNS systems.
           Agency Response

           The Security Office has an existing policy for controlling access to its
           systems or Treasury Data. The following controls are in place. The agency
           has the FNS-674 form, which must be completed for all system access or
           deletions; no action is taken without the FNS-674 being completed; each
           system is also assigned an authorizing official, which must sign off on all
           FNS-674 requests; the FNS-674 must be signed by the requestor’s
           supervisor; and Agency policy also requires periodic reviews of IDs.

           OIG Position

           We concur with FNS’ proposed management decision.

                                       Implement procedures at all locations to
 RECOMMENDATION NO. 16                 periodically identify and review the list of
                                       authorized users of Treasury systems for
                                       continued need.
           Agency Response

           FNS will develop procedures so that system managers review the list of
           active IDs on a periodic schedule.      See the FNS Responses to
           Recommendations No. 7 and 8. We anticipate full implementation by
           December 31, 2001.




USDA/OIG-A/27099-18-Hy                                                        Page 22
           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                         Page 23
      CHAPTER 4                       CONTINGENCY PLANNING NEEDS IMPROVEMENT


                     FNS’ planning for contingencies need improvement. FNS has not always
                     updated or tested its contingency plans in a timely manner nor were
                     deficiencies identified in its vulnerability assessments always corrected.
                     Experience has demonstrated that testing a contingency plan can
                     significantly improve its viability. Untested plans may create a false sense of
                     ability to recover in a timely manner. As a result, FNS’ computer facilities
                     are more susceptible to damage or unplanned down time in the event of a
                     disaster or unexpected events.

                     FNS Handbook 70222 requires contingency plans for each major FNS
                     information facility. FNS addresses these requirements through a separate
                     contingency plan for each location. In several instances there are multiple
                     contingency plans for different systems at the same location. Agency
                     requirements23 also state that as part of contingency planning, backup
                     storage and environmental controls should be considered.

                                           FNS has not always updated or tested its
            FINDING NO. 6                  contingency plans in a timely manner. FNS
                                           officials advised that this occurred because ITD
       CONTINGENCY PLANS NEED              has not placed a priority on, or budgeted funds
        TESTING AND UPDATING               for, contingency planning or established a
                                           schedule for updating and testing its
                                           contingency plans. As a result, FNS has
               reduced assurance that it can minimize damage caused by unexpected and
               undesirable events that impact information system operations.

                     FNS Handbook 70124 states in part that contingency plans should be tested,
                     reviewed, and updated at least annually, or when a major change in the
                     system occurs. FNS Handbook 70225 states that contingency plans are
                     required at each FNS information system facility to minimize damage
                     caused by unexpected and undesirable events. FNS Handbook 70226 also
                     states that emergency plans should be tested annually, including testing fire
                     fighting, loss control, evacuation, bomb threats, and other emergency
                     procedures to ensure that plans are adequate and workable and to train
22
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Part 301, Contingency Plans,
     dated November 1997.
23
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Part 315, Steps for Developing
     Contingency Plans, dated November 1997.
24
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Part 811, Contingency Plans, dated October 1996.
25
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Part 301, Contingency Plans,
     dated November 1997.
26
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Part 316, Testing Contingency
     Plans, dated November 1997.

USDA/OIG-A/27099-18-Hy                                                                                       Page 24
                     personnel. In order to ensure that personnel are fully informed about the
                     system contingency plan, the plan should include the results of testing.

                     OMB Circular A-13027 requires contingency planning by major system. FNS’
                     mainframe systems are addressed through its national office and BRSB
                     contingency plans. The MARO prepared a contingency plan for its LAN and
                     a separate plan for ROAP, a client server system. A contractor prepared the
                     contingency plan for the ALERT system, a client server system resident at
                     the FNS National Office.

                     FNS officials stated that it will replace its current Dec AlphaServer
                     4000 minicomputers with Compaq brand servers by April 1, 2001, in all
                     locations. Upon installation of the servers FNS will need to update its
                     contingency plans to incorporate any necessary changes.

                     We identified the following about four systems at the three locations
                     reviewed.

                     •    Contingency plans were not updated on an annual basis. Two
                          contingency plans were updated in 1998 and two in 1999. There have
                          been changes in one location’s operating environment that have been
                          completed since the plan was developed in 1998. In FY 2000, this
                          location upgraded their communication link by switching from token ring
                          to Ethernet. The location also switched from a shared communication
                          line (with another USDA agency) to a direct connection to NITC. Another
                          plan did not include technological changes that have been made in the
                          system. A third contingency plan listed outdated equipment and an
                          outdated emergency notification list.

                     •    Contingency plans did not always include all the mission critical systems
                          that impact the location’s operations including those that reside at NITC
                          or that are addressed by another contingency plan.

                     •    Contingency plans for two systems need to be incorporated into the
                          location’s contingency plan. The ability to carry out a system’s
                          contingency plan is dependent, in part, on the location’s LAN
                          contingency plan.

                     •    Contingency plans were not always tested on an annual basis. Two
                          contingency plans were tested in 1998, and the other two were tested in
                          1999 and 2000, respectively.


27
     OMB Circular A-130, Security of Federal Automated Information Resources, Appendix III, dated February 9, 1996.

USDA/OIG-A/27099-18-Hy                                                                                                Page 25
           •   Contingency plans did not include the date and results of prior
               contingency plan testing.

           In April 2000, ITD participated in a contingency planning test at NITC. The
           test focused on how NITC would respond in case of disaster. FNS also
           tested its web server at the Washington Service Center in March 2000.
           However, the results of these tests did not address how FNS would respond
           to an emergency.

           ITD officials stated that program and computer center managers identified
           their testing needs and ITD developed a schedule for testing contingency
           plans in 2001. ITD officials also stated that FNS plans to contract, in
           FY 2002, for updating contingency plans. At the exit conference on
           May 30, 2001, FNS officials agreed to implement necessary controls over
           contingency planning.

                                        Establish controls for ensuring contingency
 RECOMMENDATION NO. 17                  plans are tested, reviewed, and updated at
                                        least annually, or when a major change in the
                                        system occurs.
           Agency Response

           The Security Manager will review the schedule to ensure that contingency
           plans are tested, reviewed and updated annually or when a major change
           occurs. This will occur each July, beginning in July 2002, in conjunction with
           the submission of the annual cyber security plan submission to OCIO.

           OIG Position

           We concur with FNS’ proposed management decision.

                                        Update all contingency plans to include all
 RECOMMENDATION NO. 18                  operating environment changes and system
                                        improvements. The plans should include the
                                        results of prior contingency tests.
           Agency Response

           The Agency will include all operating environment changes and system
           improvements in this year’s updated plan. We will also include the results of
           prior contingency tests where possible. All contingency plans will be
           updated by May 2002.




USDA/OIG-A/27099-18-Hy                                                          Page 26
                    OIG Position

                    We concur with FNS’ proposed management decision.

                                                        For each location, incorporate individual system
     RECOMMENDATION NO. 19                              contingency plans into one plan.


                    Agency Response

                    FNS will incorporate individual system contingency plans into each location’s
                    contingency plan. The FNS Security Office will review a copy of each
                    location’s contingency plan. This will be completed by May 2002.

                    OIG Position

                    We concur with FNS’ proposed management decision.

                                          The backup storage site for one computer
          FINDING NO. 7                   facility is located too close to its primary site.
                                          According to FNS officials, the backup storage
         BACKUP STORAGE                   site is used because it is cost-effective and
     NEEDS TO BE MOVED FOR ONE            convenient. FNS did not consider the threat to
        COMPUTER FACILITY                 both the primary and backup sites to be
                                          significant enough to relocate the backup site.
                                          In case of disaster, location staff may not have
             access to the data at the computer center or the backup storage site.

                    FNS Handbook 70228 states that off-site storage should be in a location that
                    provides safe and secure storage for critical systems, including data files
                    and associated documentation. In selecting an off-site storage location,
                    FNS should consider the natural disasters that provide a threat to the current
                    facility. Potential off-site storage locations include other Federal offices with
                    a secure safe or vault.

                    Production data for this system and the location’s LAN is backed up on
                    storage tapes every night. Additional backups are performed every
                    weekend and every month. On a typical night, boxes of storage tapes are
                    loaded on a hand truck and transported to the backup storage site, a
                    Federal building located across the street from the primary location. We
                    were informed that the backup storage tapes are stored in a walk-in safe.


28
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Section 315, Part A, Backup
     Operations, dated November 1997.

USDA/OIG-A/27099-18-Hy                                                                                     Page 27
           An independent contractor completed a vulnerability assessment of this
           location’s computer operations in 1998. The independent contractor also
           identified that the backup storage site was too close to the primary site. If a
           disaster or crime would occur in the area, FNS staff may likely not be able to
           access their computer or their backup sites. As a result, FNS agreed to
           perform a cost benefit study of alternative sites.

           We reviewed FNS’ progress toward identifying an alternative site. FNS staff
           obtained some information on alternative sites, but did not select a site.
           They explained that the Federal building storage is free and there is
           significant convenience in its current location. Because FNS must physically
           transport a significant number of storage tapes to the backup site, FNS staff
           would prefer to obtain new technology that would allow 40 times more data
           storage per tape prior to any relocation of the backup site, thereby making
           an alternative backup storage site more practical. However, FNS does not
           have this type of storage technology and there are no indications that it will
           be obtained in the foreseeable future.

           There is no standard that requires a specific distance between the primary
           site and the backup storage site. However, backup storage sites at other
           FNS locations are several miles from the primary site.

           We discussed this issue with the FNS security officer in ITD, who agreed
           that the backup storage site is too close to the primary site. The security
           officer stated that a location 20 miles away would be preferable. We
           recommended a backup site be located outside of the immediate vicinity of
           the primary facility. With the current site, if there were a natural disaster, a
           crime scene, or an emergency, both locations would very likely become
           inaccessible. Effective, June 1, 2001, FNS contracted with an electronic
           media courier and storage company to store system backup tapes at their
           site, approximately 12 miles from the FNS location. Therefore, no further
           recommendation is being made.

                                        One computer facility lacked adequate fire
        FINDING NO. 8                   suppression in its computer room. FNS has not
                                        addressed the lack of adequate fire
 ADEQUATE FIRE SUPPRESSION              suppression equipment in its building lease or
 EQUIPMENT IS LACKING IN ONE            how it would handle a fire emergency during
     COMPUTER FACILITY                  off-hours.   As a result, FNS is placing
                                        personnel, equipment, and property at risk.




USDA/OIG-A/27099-18-Hy                                                            Page 28
                      FNS Handbook 70129 addresses fire suppression systems. Type II facilities,
                      which include the FNS National Office and FNS Regional Offices, are to
                      have the necessary countermeasures in place to prevent, detect, and
                      suppress fires. Fire suppression in the computer room should include fire
                      extinguishers and automatic fire suppression systems. A pre-action dry pipe
                      system is the more acceptable fire suppression system for Type II facilities.

                      We toured the location’s computer room and found that both the computer
                      room and the office suite lack an overhead fire suppression system. We
                      observed that there were fire extinguishers on hand in the computer room.

                      FNS performed a vulnerability assessment in 1998, and also identified that
                      the facility lacks a fire suppression system in its computer room and office
                      suite. FNS staff recommended a pre-action dry pipe fire suppression
                      system be installed.

                      A pre-action dry pipe system does not have water in the immediate
                      overhead pipes. The system is heat activated, therefore, when heat is
                      detected, water is sent to the sprinkler heads and activated. A traditional
                      sprinkler system has water in the overhead pipes. Other FNS computer
                      facilities have either a halon gas fire suppression system or a sprinkler
                      system.

                      FNS staff responded that they do not have funding to install a fire
                      suppression system. The facility is a leased building and any sprinkler
                      system would require substantial remodeling of the computer room and
                      office suite. Currently, FNS is in the third year of a 5-year lease with another
                      5-year option.

                      Fire extinguishers present in the building could address a fire emergency if it
                      occurred during operating hours, between 7 am to 6 pm, Monday through
                      Friday. FNS staff indicated that if a fire occurred during off-hours the local
                      fire department, which is an estimated three miles away, would respond to
                      the fire alarm. The lack of a fire suppression system places unnecessary
                      risk for FNS personnel, property and equipment.




29
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Section 311, Environmental Threats, Part A, Fire, dated
     October 1996.

USDA/OIG-A/27099-18-Hy                                                                                              Page 29
                                       Implement a fire suppression system at this
 RECOMMENDATION NO. 20                 location.


           Agency Response

           The presence of an application server elevates this location to a Type II
           computer facility. GSA has indicated that they do not require a sprinkler
           system for buildings less than three floors. However, FNS plans to relocate
           the application server to another FNS location that already has appropriate
           fire suppression equipment. We expect to have this move completed by
           March 2002.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                       Page 30
      CHAPTER 5                  OMB CIRCULAR A-130 REQUIREMENTS NOT ALWAYS MET


                     FNS has not always adhered to OMB requirements that risk assessments
                     and system certifications be completed at least every 3 years. OMB
                     requires agencies to use a risk-based approach that includes consideration
                     of the following major factors in risk management: the value of the system,
                     threats, vulnerabilities, and the effectiveness of current or proposed
                     safeguards.       The agency administrator must also certify (system
                     certification) that the system meets OMB, legislative security, and Privacy
                     Act requirements.

                                       FNS has not adhered to OMB circular
          FINDING NO. 9                requirements or its own policies that require risk
                                       assessments on its mission critical computer
     CURRENT RISK ASSESSMENTS          systems. Five of nine mission critical systems,
           ARE NEEDED                  which contain critical and sensitive information,
                                       have not been assessed within the past
                                       3 years.     FNS officials advised that this
             occurred because ITD has not placed a priority on, or budgeted funds for,
             conducting risk assessments or established a schedule for updating these
             assessments. As a result, the vulnerability of the systems and its data is
             substantially increased.

                     OMB Circular A-13030 defines risk assessment as a formal, systematic
                     approach to assessing the vulnerability of information system assets,
                     identifying threats, quantifying the potential losses from threat realization,
                     and developing countermeasures to eliminate or reduce the threat or
                     amount of potential loss. Risk assessments assist information technology
                     department management to obtain a balance between the impact of risks
                     and the cost of protective measures. Risk assessments should be
                     performed every 3 years, or when there is a change in operations or
                     technology. Further, Presidential Decision Directive (PDD) 6331 requires
                     agencies to assess the risks to their networks and establish a plan to
                     mitigate the identified risks.

                     USDA Departmental Manual 314032 requires each agency to submit an
                     automated data processing security plan or an annual update to an existing
                     plan by March 31 of each year to the OCIO. As part of the security plan, risk
                     assessment documentation must be included for each agency Type II

30
     OMB Circular A-130, Security of Federal Automated Information Resources, Appendix III, dated February 9, 1996.
31
     PDD 63, Policy on Critical Infrastructure Protection, dated May 22, 1998.
32
     USDA Departmental Manual 3140, ADP Security Policy, Section DM 3140-1.1, Part 9, dated July 1984.

USDA/OIG-A/27099-18-Hy                                                                                                Page 31
                    facility. The USDA Departmental Manual33 also requires agency Type II
                    facility’s staff to perform risk analyses every 3 years or when an aspect of
                    the computer system undergoes a significant modification.

                    FNS Handbook 70134 incorporates the risk assessment definition and
                    requirements, and guidance of OMB Circular A-130 and USDA
                    Departmental Manual 3140-1. FNS requires that current risk assessments
                    be reviewed annually and updated as necessary. Less formal assessments
                    are required during the planning and design phases of software system
                    development. All results, whether preliminary or final, must be reviewed by
                    top management for reasonableness, policy adherence, and organizational
                    unity before the implementation of countermeasures.

                    To determine if risks are periodically assessed, we reviewed FNS’ risk
                    assessment policies and identified the personnel who performed and
                    reviewed these assessments. We also reviewed security plans, risk
                    assessments, and conducted interviews with appropriate FNS personnel.

                    We identified that risk assessments for five of FNS’ nine mission critical
                    systems were completed in 1997. Two other systems’ risk assessments
                    were completed in 1998, and two in 1999.

                    Risk assessments are required to be conducted at least every 3 years or
                    when significant changes are made to the computer system. FNS has not
                    established procedures for ensuring that risk assessments are timely
                    completed, including a schedule for conducting these assessments.
                    Because these assessments have not been performed for all FNS critical
                    systems, the vulnerability of threats to the confidentiality and integrity of
                    information, the availability of its systems, and the protection of information
                    resources are substantially increased. At the exit conference on May 30,
                    2001, FNS officials agreed to implement necessary procedures over risk
                    assessments.

                                                        Establish procedures to ensure that risk
     RECOMMENDATION NO. 21                              assessments of all computer systems are
                                                        conducted every 3 years or whenever a
                                                        significant modification is made to the system.
                    Agency Response

                    FNS will establish a schedule to ensure that risk assessments are
                    conducted on all computer systems every three years, or whenever a

33
     USDA Departmental Manual 3140, ADP Security Policy, Appendix III, Section 3140-1.2, part 10, dated July 1984.
34
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, dated October 1996; and FNS Handbook 702, FNS
     Information Systems Security Standards and Procedures Handbook, Chapter 2, dated November 1997.

USDA/OIG-A/27099-18-Hy                                                                                     Page 32
                     significant modification is made to the system. For those systems that have
                     not had a risk assessment recently, we will perform risk assessments by
                     May 2002.

                     OIG Position

                     We concur with FNS’ proposed management decision.

                                                             Immediately conduct risk assessments for the
     RECOMMENDATION NO. 22                                   five mission critical systems that were
                                                             assessed in 1997.

                     Agency Response

                     Two of the systems are in the process of major redesign. Risk assessments
                     will be done on the new systems prior to installation. Risk assessments will
                     be scheduled for the systems as quickly as possible. We will complete the
                     risk assessments by January 2002.

                     OIG Position

                     We concur with FNS’ proposed management decision.

                                            System certifications and re-certifications have
          FINDING NO. 10                    not been timely completed for six of FNS’ nine
                                            mission critical systems. Certifications have not
     SYSTEM CERTIFICATIONS AND              been obtained for three systems and the
       RE-CERTIFICATIONS ARE                re-certification for three other systems are past
              NEEDED                        due. In addition, FNS has not made substantial
                                            progress toward the re-certification of another
                                            system that is in the process of major changes.
             FNS officials advised that this occurred because the certification and
             re-certification of these systems was not budgeted or planned. As a result,
             there is reduced assurance that controls are working properly for these
             systems.

                     OMB Circular A-13035 requires that agencies provide a written authorization
                     that major systems are ready for use. FNS accomplishes this through the
                     system certification process. Prior to certification, two considerations must
                     be addressed. A risk assessment must be completed and reviewed; and
                     administrative, physical, and technical safeguards must be reviewed and
                     found sufficient and operational.


35
     OMB Circular A-130, Security of Federal Automated Information Resources, Appendix III, dated February 1996.

USDA/OIG-A/27099-18-Hy                                                                                             Page 33
                    FNS Handbook 70136 states that information systems security certification is
                    an official statement that approves the security of a major system. Sensitive
                    automated systems require formal certification prior to the system being
                    placed in operation. For sensitive systems, a risk assessment should be
                    completed prior to the system being certified as having adequate technical
                    and physical safeguards for implementation and production. Certification is
                    not permanent.        As a system or its security environment changes
                    re-certification is needed to verify that security protection remains applicable.
                    Re-certifications should be conducted for major modifications, changes in
                    the security environment, occurrence of a significant security violation, audit
                    findings, or every 3 years.

                    FNS Handbook 70237 states that re-certification procedures are the same as
                    certification procedures, except that portions of the process, depending on
                    the reason for the certification may be abbreviated. If a change to the
                    system is the reason for re-certification, the re-certification should focus on
                    the change and how it impacts the security features of the rest of the
                    system. If the re-certification is required due to a lapse of 3 years, then it
                    must include all aspects of the system.

                    In our review of system certifications we noted the following.

                    •    No system certification was obtained for three systems. These systems
                         were placed in operation in 1981, 1996, and 1998, respectively.

                    •    One system last certified in March 1996, was due for re-certification in
                         March 1999, but it has not been performed. Two other systems last
                         certified in January 1998 were due for re-certification in January 2001.

                    Additionally, for one system there was a major change in the computing
                    environment. The system switched from the current mainframe environment
                    to a client server in April 2001. As of November 2000, no substantial
                    progress had been made toward the certification of the new system. System
                    certification is a lengthy process and is required to be completed prior to
                    placing the system in operation. ITD staff stated that certification for this
                    system and the re-certification of several other systems, which were due in
                    January 2001, are a priority to complete during FY 2001.

                    FNS has not established procedures for ensuring that system certifications
                    and re-certifications are timely completed, including a schedule for
                    conducting these certifications. At the exit conference on May 30, 2001,


36
     FNS Handbook 701, FNS Information Systems Security Policy Handbook, Part 630, dated October 1996.
37
     FNS Handbook 702, FNS Information Systems Security Standards and Procedures Handbook, Part 710, dated November 1997.

USDA/OIG-A/27099-18-Hy                                                                                         Page 34
           FNS officials agreed to implement necessary controls over system
           certifications and re-certifications.

                                        Establish     controls  to     ensure   system
 RECOMMENDATION NO. 23                  certifications and re-certifications are timely
                                        completed.

           Agency Response

           FNS will perform system certification/re-certification in conjunction with the
           risk     assessments          and     contingency   plans     discussed      in
           Recommendations 17, 18, 20 and 21. We anticipate completing the
           certification/re-certification by July 2002.

           OIG Position

           We concur with FNS’ proposed management decision.

                                        Establish a schedule and expedite the
 RECOMMENDATION NO. 24                  completion of all required system certifications
                                        and re-certifications.

           Agency Response

           FNS will establish a schedule by September 30, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                           Page 35
      CHAPTER 6                          PRIVACY ACT DATA NEEDS TO BE ENCRYPTED


                                               FNS has not validated that all data for one
                FINDING NO. 11                 system is encrypted before transmission to
                                               NITC. This occurred because FNS has not
                                               conducted reviews to determine whether all
                   States have implemented the encryption software provided to them. As a
                   result, sensitive Privacy Act data may be at risk when sent from States
                   because it may not be encrypted.

                     OMB Circular A-13038 requires Federal agencies to implement and maintain
                     a program to ensure adequate security is provided for all agency information
                     collected, processed, or transmitted in mainframe systems.            USDA
                     Departmental Regulation39 states that all sensitive data, subject to Privacy
                     Act considerations must be encrypted before transmission over the Internet.

                     The Privacy Act of 1974 prohibits disclosure of certain information to the
                     public. This information includes any item, collection, or grouping of
                     information about an individual that is maintained by an agency, including,
                     but not limited to, education, financial transactions, medical history, criminal,
                     and certain types of employment history. In addition, the prohibited
                     information includes any item of information containing the following about
                     an individual: individual’s name, identifying number or symbol, finger/voice
                     print, or photograph.

                     We reviewed the security plans for FNS’ nine mission critical systems and
                     interviewed ITD personnel to determine whether sensitive data is encrypted
                     prior to transmission over the Internet. We determined that three of FNS
                     mission critical systems contain information or data that is protected from
                     disclosure under the Privacy Act of 1974.

                     Access to three systems’ data is provided via the departmental Intranet from
                     FNS national, regional and field offices to the system mainframe. Data
                     encryption exists for data transmission between the FNS national, regional
                     and field offices, NITC and BRSB. Data encryption also exists for financial
                     data sent between NITC and the National Finance Center and Treasury’s
                     financial systems.

                     Twenty State agencies, who receive almost $6 billion in program funds,
                     have a dial-up emulator, or connection, to NITC for submitting program

38
     OMB Circular A-130, Security of Federal Automated Information Resources, Appendix III, dated February 9, 1996.
39
     USDA Departmental Regulation 3140-2, USDA Internet Security Policy, dated March 7, 1995.

USDA/OIG-A/27099-18-Hy                                                                                                Page 36
           participation data. Those States that do not have a dial-up connection
           submit their data, manually, to FNS Regional Offices for data entry into the
           program database. All States that have an Internet protocol address to
           NITC received encryption software from FNS in October 1999. However,
           ITD did not ensure that these States have implemented and are utilizing the
           encryption software. ITD staff stated that they would have to review all the
           States to identify whether they have implemented the software. At the exit
           conference on May 30, 2001, FNS officials agreed to require regional offices
           to perform the necessary reviews to ensure encryption software is installed
           and being used by all applicable States.

                                       Perform reviews of all States to ensure that
 RECOMMENDATION NO. 25                 encryption software has been installed and is
                                       being utilized for the transmission of Privacy Act
                                       data.
           Agency Response

           FNS will request that the Regional Deputy Security Officers verify with all
           their State agencies that they are utilizing the appropriate encryption.
           Agency policy requires either use of appropriate encryption software or
           mailing Privacy Act data into the FNS Regional Office. The Regional Deputy
           Security Officers will report back to the Security Office by
           December 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                          Page 37
      CHAPTER 7                    INADEQUATE SEPARATION OF DUTIES EXIST WITHIN ITD



                                               Incompatible duties exist within the ITD. The
                FINDING NO. 12                 network LAN administrator, who is a super user
                                               of the LAN40, is also the deputy security officer,
                                               who is responsible for maintaining the security
                   over the LAN. As a result, there is increased risk that data could be altered
                   and not be detected.

                      OMB Circular A-12341 requires specific management control standards,
                      including separation of duties. Key duties and responsibilities in authorizing,
                      recording, and reviewing official agency transactions should be separated
                      among individuals. Management controls developed for agency programs
                      should be logical, applicable, and efficient and effective in accomplishing
                      management objectives.         U.S. General Accounting Office Federal
                      Information System Controls Audit Manual42 states different individuals
                      should generally perform the following functions: system design, application
                      programming, data security and network administration.

                      ITD identified the individuals responsible for automated system support. We
                      reviewed computer support functions as identified by ITD and interviewed
                      responsible personnel, as necessary. We identified that a Desktop Services
                      Branch staff person is responsible for network administration. The network
                      administrator is responsible for maintaining a secure and reliable on-line
                      communications network and serves as liaison with user departments to
                      resolve network needs and problems. This same individual is also a deputy
                      security officer who is responsible for the adequacy of security controls over
                      the LAN. This presents a conflict because the individual is a super user of
                      the LAN and has access to all data and programs on the LAN and should
                      not be responsible for controlling security or access to the LAN.

                      A more appropriate separation of controls over network security would be
                      with the information systems security officer or the deputy information
                      systems security officer. These individuals are responsible for FNS system
                      security and are in charge of controlling access to mainframe systems,
                      contingency planning, security planning, risk assessments, and other similar
                      duties. At the exit conference on May 30, 2001, FNS officials agreed to


40
     A super user has access to all data and programs on the LAN.
41
     OMB Circular A-123, Management Accountability and Control, revised June 21, 1995.
42
     U.S. General Accounting Office, Federal Information System Controls Audit Manual, critical element Section SD-1, Segregation
     Incompatible Duties and Establish Related Policies, dated December 1996.

USDA/OIG-A/27099-18-Hy                                                                                                 Page 38
           evaluate the responsibilities within the ITD and ensure adequate separation
           of duties.

                                       Delegate the responsibility for data security
 RECOMMENDATION NO. 26                 over the LAN to either the information systems
                                       security officer or the deputy information
                                       systems security officer.
           Agency Response

           The ITD is in the process of reorganizing. The separation of duties will be
           addressed during the reorganization. The reorganization will be completed
           by October 31, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.




USDA/OIG-A/27099-18-Hy                                                       Page 39
 EXHIBIT A – FNS RESPONSE TO DRAFT REPORT

                                            Page 1 of 7




USDA/OIG-A/27099-18-Hy                        Page 40
                         Page 2 of 7




USDA/OIG-A/27099-18-Hy     Page 41
                         Page 3 of 7




USDA/OIG-A/27099-18-Hy     Page 42
                         Page 4 of 7




USDA/OIG-A/27099-18-Hy     Page 43
                         Page 5 of 7




USDA/OIG-A/27099-18-Hy     Page 44
                         Page 6 of 7




USDA/OIG-A/27099-18-Hy     Page 45
                         Page 7 of 7




USDA/OIG-A/27099-18-Hy     Page 46
                                              ABBREVIATIONS

ADP
  Automated Data Processing .............................................................................................. 4
ALERT
  Anti-Fraud Locator Using Electronic Benefits Transfer Retailer Transactions.................. 1

BRSB
 Benefit Redemption Systems Branch ................................................................................ 2

CNP
 Child Nutrition Programs .................................................................................................... 1

FNS
  Food and Nutrition Service.................................................................................................. i
FSP
  Food Stamp Program......................................................................................................... 1
FY
  Fiscal Year.......................................................................................................................... 1

IT
  Information Technology....................................................................................................... i
ITD
  Information Technology Division........................................................................................ 1

LAN/WAN
  Local and Wide Area Networks.......................................................................................... 4

MARO
 Mid-Atlantic Regional Office............................................................................................... 3

NIST
  National Institute of Standards and Technology................................................................ 3
NITC
  National Information Technology Center ............................................................................ii

OCIO
  Office of Chief Information Officer...................................................................................... 4
OIG
  Office of Inspector General ................................................................................................ 4
OMB
  Office of Management and Budget ..................................................................................... i

USDA/OIG-A/27099-18-Hy                                                                                                      Page 47
ROAP
 Regional Office Administered Programs............................................................................ 3

STARS
  Store Tracking and Redemption Subsystem ..................................................................... 2

TCP/IP
  Transmission Control Protocol/Internet Protocol ............................................................... 5

USDA
 U.S. Department of Agriculture .......................................................................................... 1




USDA/OIG-A/27099-18-Hy                                                                                          Page 48
